         Office Of Inspector General




December 7, 2006

H. GLEN WALKER
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT:      Audit Report - Postal Service Officers’ Travel and Representation
              Expenses for Fiscal Year 2006 (Report Number FT-AR-07-005)

This report presents the results of our audit of the U.S. Postal Service officers’ travel
and representation expenses for fiscal year 2006 (Project Number 06BD020FT000).
We conducted the audit in response to the Board of Governors’ policies and procedures
requiring annual audits of officers' travel and representation expenses.

Postal Service officers incurred approximately $1 million in travel and representation
expenses for the fiscal year ended September 30, 2006. Our audit disclosed that,
based on sample results, these expenses were properly supported and complied with
Postal Service policies and procedures. However, our audit does not provide absolute
assurance of the absence of fraud or illegal acts, due to the nature of evidence and the
characteristics of such activities. We discussed the results of the audit with Postal
Service management on December 1, 2006. Because there were no recommendations
provided, management chose not to respond to this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Lorie Siewert,
Director, Financial Statements, or me at (703) 248-2100.

   E-Signed by John Cihota
ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachment

cc: Lynn Malcolm
    Vincent H. DeVito, Jr.
    Steven R. Phelps
Postal Service Officers’ Travel and Representation                                          FT-AR-07-005
 Expenses for Fiscal Year 2006


                                              INTRODUCTION
Background                         The Postal Reorganization Act of 1970, as amended,
                                   requires annual audits of the U.S. Postal Service’s financial
                                   statements. As part of these audits, the Board of Governors
                                   adopted policies and procedures that require annual audits
                                   of officer travel and representation expenses.

                                   Postal Service officers shape the strategic direction by
                                   setting goals, targets, and indicators within the framework
                                   the Board of Governors established. Their positions are
                                   classified as Postal Career Executive Service II and include
                                   the Postmaster General, Deputy Postmaster General, and
                                   all Vice Presidents. The Board of Governors has authorized
                                   50 officer positions.

                                   Officers are reimbursed for actual expenses incurred on
                                   official travel. They are also reimbursed for representation
                                   expenses incurred with customer, industry, or employee
                                   groups with whom the Postal Service conducts official
                                   business. Postal Service policy requires officers to claim
                                   reimbursement for all travel and representation expenses
                                   through the eTravel system.

Objective, Scope,                  Our audit objective was to determine whether travel and
and Methodology                    representation expenses claimed1 by Postal Service officers
                                   were properly supported and complied with Postal Service
                                   policies and procedures.

                                   To accomplish our objective, we conducted fieldwork from
                                   March through November 2006. We used Postal Service
                                   officers’ travel expense guidelines issued by the Postmaster
                                   General updated June 14, 2001, and September 13, 2006,
                                   as our criteria in evaluating reported expenses. We used a
                                   cluster sample design for the officers' travel testing.
                                   Specifically, from a possible 172 "officer-quarter" clusters
                                   (43 officers x 4 quarters), we randomly selected 50 clusters
                                   for review. We reviewed all reimbursements in each
                                   selected cluster. Additionally, we reviewed all
                                   reimbursements for officers not included in the original
                                   universe of 43 officers. In total, we reviewed 317
                                   reimbursements.


1
    We limited the audit universe to reimbursements processed through the eTravel system.




                                                          1
Postal Service Officers’ Travel and Representation                                   FT-AR-07-005
 Expenses for Fiscal Year 2006


                               We conducted this audit from March through December
                               2006, in accordance with generally accepted government
                               auditing standards and included such tests of internal
                               controls and accounting records, and other auditing
                               procedures, as we considered necessary. Our tests of
                               controls were limited to those necessary to achieve our audit
                               objective. Our procedures were not designed to provide
                               assurance of internal controls. Consequently, we do not
                               provide an opinion on such controls. We discussed our
                               observations and conclusions with management officials and
                               included their comments where appropriate.

Prior Audit Coverage           We have audited Postal Service officers’ travel and
                               representation expenses since fiscal year (FY) 1998 and
                               have not identified any reportable conditions. We disclosed
                               the results of our most recent audit for FY 2005 in our report,
                               Postal Service Officers’ Travel and Representation
                               Expenses for Fiscal Year 2005 (Report Number FT-AR-06-
                               003, dated November 16, 2005).

                               In addition, we evaluated whether Postal Service officers’
                               travel guidelines were reasonable when compared to other
                               entities’ travel policies, including guidelines prescribed by
                               other federal and local government entities, private
                               corporations, not-for-profit organizations, and trade journals.

                               We offered suggestions for the Postal Service to consider
                               when updating the officers’ travel guidelines, and
                               management incorporated many of our suggestions into the
                               recently updated guidelines. We disclosed the results in our
                               report, Postal Service Officers’ Travel Expense Guidelines
                               (Report Number FT-WP-06-001, dated September 29,
                               2006).




                                                     2
Postal Service Officers’ Travel and Representation                                                      FT-AR-07-005
 Expenses for Fiscal Year 2006


                                           AUDIT RESULTS
Audit Results                      Based on the sample results, travel and representation
                                   expenses totaling approximately $1 million incurred by
                                   officers of the Postal Service for the year ended
                                   September 30, 2006, were properly supported and complied
                                   with Postal Service policies and procedures.2 Our audit
                                   does not provide absolute assurance of the absence of
                                   fraud, or illegal acts, due to the nature of evidence and the
                                   characteristics of such activities.

Management’s                       We discussed the results of the audit with Postal Service
Comments                           management on December 1, 2006. Because there were
                                   no recommendations provided, management chose not to
                                   respond to this report.

Evaluation of                      No action by management was required.
Management’s
Comments




2
  The sample results returned zero deviations. The upper error limit on these results is 5 percent and meets the
tolerable error planned. There is a 95 percent chance that the true deviation rate in the population does not exceed
the tolerable deviation rate of 5 percent. Since the results meet our design criteria, we conclude that the submitted
reimbursements were properly supported and complied with established Postal Service policies and procedures.




                                                           3
